TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Performance Measures and Improved Case
                       Tracking Would Help the Exempt
                        Organizations Function Better
                             Allocate Resources



                                          March 13, 2008

                              Reference Number: 2008-10-057




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                March 13, 2008


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Performance Measures and Improved Case
                              Tracking Would Help the Exempt Organizations Function Better
                              Allocate Resources (Audit # 200710037)

 This report presents the results of our review to assess the Exempt Organizations (EO) function
 Review of Operations Unit’s effectiveness in identifying and evaluating recently established
 tax-exempt organizations that may not be complying with their stated tax-exempt purposes
 and/or may not be current with all filing requirements.1 In addition, we determined whether the
 results of reviews of recently established tax-exempt organizations were used to identify
 emerging trends or issues for future compliance work or education and outreach activities. This
 audit was developed as part of the Treasury Inspector General for Tax Administration Office of
 Audit’s Fiscal Year 2008 Annual Audit Plan related to the Major Management Challenge of tax
 compliance initiatives.

 Impact on the Taxpayer
 The President’s Management Agenda states that scarce Federal Government resources should be
 allocated to programs that deliver results. However, the EO function has not defined goals or
 established an effective tracking system to measure the results of Review of Operations Unit
 work. As a result, there is a need for EO function management to perform more detailed
 analyses of completed casework related to recently established tax-exempt organizations to


 1
   In August 2005, the EO function established the Review of Operations Unit to review the operations of tax-exempt
 organizations. This was in response to discussions held by Congress to require informal filings by certain
 tax-exempt organizations to coincide with their fifth anniversary of being recognized as tax-exempt, which would
 allow a review by the Internal Revenue Service of the organizations’ activities.
                   Performance Measures and Improved Case Tracking Would
                         Help the Exempt Organizations Function Better
                                      Allocate Resources


determine if taxpayer funds allocated to this activity are being used wisely and tax-exempt
organizations are being contacted only when necessary.

Synopsis
The Review of Operations Unit has implemented a follow-up process to select a sample of
tax-exempt organizations that have recently received tax-exempt status from the Internal
Revenue Service (IRS). Most of the organizations were selected 3 years after they received their
tax-exempt status. We sampled closed cases from these recently established organizations and
concluded that, overall, the Review of Operations Unit is processing cases according to Unit
procedures to determine if the organizations were operating primarily for the purposes for which
they were granted tax-exempt status and were current in filing required returns. IRS records
show that 81 percent (525 of 650 cases closed) of these cases were closed with no change,
indicating there were no potential noncompliance issues identified in its limited review.
However, we were unable to fully assess the effectiveness of the Review of Operations Unit’s
work for several reasons. EO function management has not established comprehensive
performance measures for the Unit to identify specific Unit goals and assist in measuring its
overall success. Also, some case results are not captured on the Review of Operations Unit
database to effectively track the Unit’s overall accomplishments. For example, the Unit
sometimes uses the no change disposal code even though productive actions were taken by the
Unit (e.g., changes were made to some tax-exempt organizations’ return filing requirements on
an IRS database). If this type of positive impact on tax administration is not captured,
EO function management could mistakenly believe more than 80 percent of the recently
established tax-exempt organizations reviewed by the Review of Operations Unit are being
closed without any positive actions and may decide that the benefit or impact of the Unit is low.
In actuality, the percentage of cases closed with a positive action may be higher.
Further, EO function management does not analyze the results of Unit casework related to
recently established tax-exempt organizations to identify potential issues for future educational
and compliance activities. By developing detailed goals for the Unit, establishing performance
measures to track the Unit’s progress in meeting these goals, and ensuring that accurate data are
captured for analysis, the EO function will be better able to evaluate the Unit’s success and
ensure that the proper level of resources are allocated to the Unit.

Recommendations
We recommended that the Director, EO, establish performance measures for the Review of
Operations Unit, track all actions taken by the Unit to help measure its accomplishments, and
analyze the results of recently established tax-exempt organizations casework for potential
educational and compliance activities.

                                                                                                    2
                  Performance Measures and Improved Case Tracking Would
                        Help the Exempt Organizations Function Better
                                     Allocate Resources



Response
IRS management agreed with all of our recommendations. The EO function is in the process of
developing additional performance measures for the Review of Operations Unit and adding more
fields to the Unit’s database to capture additional results. In addition, EO function management
is currently reviewing the results of cases closed within the Unit or transferred to the
EO Examinations function to determine whether the review of recently established tax-exempt
organizations should continue. Management’s complete response to the draft report is included
as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                               3
                         Performance Measures and Improved Case Tracking Would
                               Help the Exempt Organizations Function Better
                                            Allocate Resources




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Additional Information Will Assist in Evaluating the Performance of and
          Allocating Resources for the Review of Operations Unit ............................Page 3
                    Recommendation 1:..........................................................Page 7

                    Recommendations 2 and 3: ......................................................... Page 8


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Outcome Measures...............................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
      Performance Measures and Improved Case Tracking Would
            Help the Exempt Organizations Function Better
                         Allocate Resources




                   Abbreviations

EO           Exempt Organizations
IRS          Internal Revenue Service
                         Performance Measures and Improved Case Tracking Would
                               Help the Exempt Organizations Function Better
                                            Allocate Resources




                                      Background

Organizations that are recognized by the Internal Revenue Service (IRS) as tax-exempt under
Section 501(c)(3)1 of the Internal Revenue Code are eligible to receive tax-deductible
contributions from the public. To be recognized as a Section 501(c)(3) tax-exempt organization,
an applicant (with certain exceptions) must file an Application for Recognition of Exemption
Under Section 501(c)(3) of the Internal Revenue Code (Form 1023) with the IRS describing its
current or planned financial and program activities, organizational documents, and governance
structure. After reviewing the Form 1023, the IRS may either deny the application or grant the
applicant tax-exempt status. Once an organization is granted tax-exempt status by the IRS, it
generally may continue to rely on this initial determination as long as there are no substantial
changes in the organization’s character, purposes, or methods of operation. Further, when
tax-exempt status is granted, it is rarely revoked unless an unfavorable examination is completed.
However, an organization may change and grow significantly over time, sometimes in ways
inconsistent with its tax exemption.
There has been significant growth in the number of entities recognized as tax-exempt, with more
than 70,000 tax-exempt applications processed annually. In Fiscal Year 2006, there were
approximately 1.6 million tax-exempt organizations (excluding churches) with $2.4 trillion in
assets and $1.2 trillion in annual revenues. An organization must disclose on its annual
information returns filed with the IRS whether it has made any significant changes to (1) the
activities it conducts to further its tax-exempt purposes or (2) its organizing and governing
documents. If so, it must describe the changes made and attach the pertinent documents. The
IRS has the authority to conduct examinations of tax-exempt organizations to determine if they
qualify for continued tax exemption and assess additional taxes for noncompliance. However,
each year, the Exempt Organizations (EO) function examines less than 1 percent of existing
tax-exempt organizations.
Currently, there is no mechanism in the law requiring a periodic review of the basis for an
organization’s tax-exempt status. In addition, IRS management has reported that abusive tax
schemes involving various types of tax-exempt and government entities appear to have grown.
Left unchallenged, such schemes not only undermine confidence in our voluntary compliance tax
system but also can undermine support for charitable giving, a unique and important feature of
our society. Congress has discussed the possibility of requiring informal filings by certain
tax-exempt organizations to coincide with their fifth anniversary of being recognized as
tax-exempt. The IRS could then review an organization’s activities to assure it is operating
exclusively for the purposes for which it was granted tax exemption. The Advisory Committee


1
    Section 501(c)(3) (2006).
                                                                                           Page 1
                      Performance Measures and Improved Case Tracking Would
                            Help the Exempt Organizations Function Better
                                         Allocate Resources



on Tax Exempt and Government Entities2 also recommended an operational review at a 3-year,
5-year, or some other appropriate interval after tax exemption is recognized, to focus on actual
operations, charitable accomplishments, relationships with insiders, and lobbying and political
activity.
In response to these concerns and recommendations, the EO function created the Review of
Operations Unit as part of the EO Compliance Area in August 2005. One of the Unit’s
responsibilities is performing operational reviews of organizations to ensure they are operating in
accordance with their tax-exempt purposes and are current with all filing requirements.
This review was performed at the EO Examinations function in Dallas, Texas, the Tax Exempt
and Government Entities Division in Washington, D.C., and the EO Compliance Area in
Ogden, Utah, during the period June through November 2007. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our finding and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




2
 This Committee provides a public forum through which to discuss issues and enable the IRS to receive input on the
development and implementation of IRS policy.
                                                                                                          Page 2
                   Performance Measures and Improved Case Tracking Would
                         Help the Exempt Organizations Function Better
                                      Allocate Resources




                                Results of Review

Additional Information Will Assist in Evaluating the Performance of
and Allocating Resources for the Review of Operations Unit
Overall, the Review of Operations Unit properly processed cases related to recently established
tax-exempt organizations. When processing cases, the Unit takes actions to ensure the accuracy
of tax-exempt organizations’ accounts, which also provides a benefit to other EO function units
relying on the account data. It developed a process to sample tax-exempt organizations that had
recently received tax-exempt status and followed that process. For example, the Unit selected
tax-exempt organizations approximately 3 years after they had received exempt status and
determined if they appeared to be operating in accordance with their tax-exempt purposes and
were current with all filing requirements.
However, we were unable to fully assess the effectiveness of
the Review of Operations Unit’s work for several reasons.
                                                                   We were unable to fully assess
EO function management has not established                         the effectiveness of the Review
comprehensive performance measures for the Unit to                   of Operations Unit because
identify specific Unit goals and assist in measuring its          performance measures have not
overall success. Also, some case results are not captured on          been established and case
the Review of Operations Unit database to effectively track         results are not being captured
                                                                              effectively.
the Unit’s overall accomplishments. Further, EO function
management does not analyze the results of Review of
Operations Unit casework related to recently established tax-exempt organizations to determine
the effectiveness of the Unit’s work and identify potential issues for future educational and
compliance activities. By developing detailed goals for the Unit, establishing performance
measures to track the Unit’s progress in meeting these goals, and ensuring that accurate data are
captured for analysis, the EO function will be better able to evaluate the Unit’s ability to bring
organizations into compliance and ensure that the proper level of resources are allocated to the
Unit.

The EO function implemented a process to follow up on recently established
tax-exempt organizations but should develop performance measures
The Review of Operations Unit was originally implemented to complete compliance reviews on
tax-exempt organizations to determine whether they are operating in accordance with their
tax-exempt purposes and are current with their filing requirements. Unit personnel review



                                                                                            Page 3
                      Performance Measures and Improved Case Tracking Would
                            Help the Exempt Organizations Function Better
                                         Allocate Resources



information available on the Integrated Data Retrieval System,3 filed returns, applications for tax
exemption, and the Internet to assess the organizations’ operations and make recommendations
for further actions. These reviews also include identifying indicators of fraud, evidence of
unrelated business income and employment tax issues, and excessive compensation issues. If no
potential compliance issues are identified, the Review of Operations Unit will close the case as
“No Change.” Generally, if potential compliance issues are identified, the Unit will transfer the
case to the EO Examinations function for further review.
We reviewed a statistical sample of 98 cases closed as “No Change” in the Unit from July 1,
2006, through June 30, 2007. All of the 98 cases involved recently established tax-exempt
organizations, 94 (96 percent) of the 98 cases were properly processed. For the four incorrectly
processed cases, Unit personnel did not ensure that all returns were filed as required or did not
update the Integrated Data Retrieval System to correctly reflect the organization’s filing
requirements. The Unit planned to reopen these four cases to properly address all potential
compliance issues.4
From its inception in August 2005 through July 2007, the Review of Operations Unit closed
2,750 cases for all of its various programs, including work-related to recently established
tax-exempt organizations, and other casework in support of major EO function compliance
initiatives, such as credit counseling and political activity by tax-exempt organizations.
Figure 1 shows approximately 24 percent (650 of 2,750 cases) of the Unit’s work was focused on
a periodic follow-up of recently established tax-exempt organizations.
                       Figure 1: Review of Operations Unit Workload Analysis
                                  (August 2005 through July 2007)
                                                         Total Review of              Recently
                                                        Operations Unit          Established Closed
                                                          Closed Cases               Cases Only
          No Change Closures                            1,948 (71 percent)        525 (81 percent)
          Miscellaneous Closures                         191 (7 percent)            28 (4 percent)
          Transfers to the
          EO Examinations Function                       611 (22 percent)           97 (15 percent)
          Total Case Closures                                 2,750                      650
        Source: Review of Operations Unit database.

The President’s Management Agenda states that scarce Federal Government resources should be
allocated to programs that deliver results. However, the EO function has not developed



3
  An IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  See Appendix IV for additional details.
                                                                                                           Page 4
                      Performance Measures and Improved Case Tracking Would
                            Help the Exempt Organizations Function Better
                                         Allocate Resources



comprehensive performance measures5 for the Review of Operations Unit. Since the Unit’s
inception in August 2005, the only performance measure established for it is the number of cases
closed. The current goal is 1,500 case closures annually. Without performance data to measure
the productivity and impact of the Review of Operations Unit, the EO function cannot determine
the best way to allocate its resources. EO function management is considering the use of
measures such as the number of days to process a case, hours per case, and use of the proper
disposal code when cases are closed.

EO function management should improve how closed case information is
captured and perform analyses of closed case results
Improvements can be made in how case results are captured on the Review of Operations Unit
database to effectively track the Unit’s overall accomplishments. In addition, no analyses have
been completed of the Unit’s work related to recently established tax-exempt organizations either
closed in the Review of Operations Unit or transferred to the EO Examinations function to assess
the productivity of the cases and identify potential areas for additional compliance and/or
educational activities.
The Review of Operations Unit should capture more accurate information on its database
to better portray the results of its work. The Unit uses a limited number of disposal codes
(used to describe the outcome of the case reviews) on its database to track the actions taken by its
personnel on the cases (e.g., “No Change” or “transfer to EO Examinations function”). Because
the Unit uses very few disposal codes other than “No Change” it is difficult for EO function
management to determine the impact of the Unit’s actions. In 20 (20 percent) of 98 “No
Change” cases we reviewed, either the cases were closed using the wrong disposal code or new
disposal codes/fields on the database could be used to better track the effectiveness of the Unit.6
In 167 of the 20 cases, the Unit used the “No Change” disposal code even though productive
actions were taken by the Unit (e.g., changes were made to some tax-exempt organizations’
return filing requirements on an IRS database). For the remaining four cases, the Unit made a
minor closing error (one case was closed as “No Change” without taxpayer contact, but contact
was made by the Unit) or Unit personnel either should have used an existing disposal code other
than “No Change” (one case) or a disposal code was not available that accurately tracked the
actions taken on the case (two cases).
We believe these types of actions should be tracked because they benefit other EO function units
relying on the account data. For example, updating an organization’s filing requirements to
show it is not required to file returns will eliminate unnecessary future contacts by the

5
  Performance goals are estimates of results expected for a given period of time. They are included in plans as
indicators of what an organizational unit wants to achieve.
6
  See Appendix IV for additional details.
7
  In one case, the Unit also used the wrong disposal code when closing it. To avoid double counting, we did not
include this issue as a closing error.
                                                                                                           Page 5
                         Performance Measures and Improved Case Tracking Would
                               Help the Exempt Organizations Function Better
                                            Allocate Resources



EO function to follow up on the nonfiled returns. If case results showing this type of positive
impact are not captured, EO function management could mistakenly believe more than
80 percent (see Figure 1) of the recently established tax-exempt organizations reviewed by the
Review of Operations Unit are being closed without any positive actions and may decide the
benefit or impact of the Unit is low. In actuality, the percentage of cases closed with a positive
action may be higher.
In addition, the Review of Operations Unit database could track additional information related to
the identified issues for cases transferred for examination work. The current Review of
Operations Unit database is unable to capture more than one potential examination issue8
identified per case, although up to three issues could be documented in the case file. By
capturing all issues identified by the Unit for potential compliance activity, EO function
management will have more complete information available for future analyses.
EO function management stated the “No Change” disposal code was used because management
wanted to track whether the Review of Operations Unit contacted organizations during its case
processing. Two “No Change” disposal codes are often used by the Unit: “no change with
taxpayer contact” and “no change without taxpayer contact.” This was an operational decision to
measure the differences between the Review of Operations Unit and another EO function unit.
However, now that the Review of Operations Unit has been reviewing recently established
tax-exempt organizations for 2 years, we believe there is an opportunity to improve the data
captured to analyze the true impact of the Unit.
Additional analyses of closed case results should prove beneficial. When the Review of
Operations Unit identifies an issue(s) in a recently established tax-exempt organization case that
requires further review, it transfers the case to the EO Examinations function. To determine how
well the Unit is identifying issues for the EO Examinations function, it is important to track a
case through to the final examination results. The Unit uses project codes to track cases by the
various programs worked in the Unit, such as recently established tax-exempt organization cases,
credit counseling cases, and political activity cases.
However, the Review of Operations Unit project code is often changed when a case is transferred
from the Unit to the EO Examinations function. Therefore, we could not determine if the
EO Examinations function identified noncompliance or assessed additional taxes on the recently
established tax-exempt organization cases that were transferred from the Review of Operations
Unit. If the EO function were able to trace recently established cases through to their final
disposition in the EO Examinations function, EO function management could decide if the
Review of Operations Unit is identifying productive cases and determine the correct allocation of
resources that should be dedicated to recently established tax-exempt organization casework.
Without this information, it will be difficult for the EO function to make a data-driven decision
in this regard.

8
    Examples of examination issues include delinquent filings, incomplete filings, and political activities.
                                                                                                               Page 6
                   Performance Measures and Improved Case Tracking Would
                         Help the Exempt Organizations Function Better
                                      Allocate Resources



In addition to determining the productivity of cases transferred from the Review of Operations
Unit, the EO function could use the results of closed cases to identify needed internal training.
For example, the EO function Special Review Unit (a different Unit) conducted a review of
examinations closed as “No Change” that originated in the Review of Operations Unit to
determine, in part, if the cases were properly closed by the EO Examinations function. This
analysis showed that the majority of cases were properly closed by EO Examinations function.
However, the Special Review Unit determined many of the cases reviewed involved a specific
type of tax-exempt organization. As a result, EO function management determined that
additional internal training within the Review of Operations Unit may be necessary in this area to
better process these cases and determine whether they should be referred for examination.
Analyses of recently established tax-exempt organization cases closed in the Review of
Operations Unit or transferred to the EO Examinations function could also provide input to
EO function management in determining the need for additional taxpayer education and
compliance activities. For example, if closed case results show that recently established
tax-exempt organizations are not always filing required returns, additional taxpayer educational
activities could be conducted to assist this type of organization in understanding filing
obligations. Similarly, closed case results could reveal compliance trends in recently established
tax-exempt organizations. If any trends are identified, the EO function could divert resources to
a special project(s) to bring recently established tax-exempt organizations back into compliance.
Improved tracking of issues identified by the Review of Operations Unit and overall case results
will ensure EO function management has complete and accurate data for conducting ongoing
analyses, which could be used to ensure the Unit is focusing its limited resources on the most
productive areas, transferring productive cases for review to the EO Examinations function, and
reducing taxpayer burden by limiting taxpayer contact for tax-exempt organizations that are
compliant with their filing requirements. These analyses could also support future resource
allocation decisions.
During our fieldwork, EO function management stated that statistical projections of case results
may be completed in the future to determine if common issues are being identified for Review of
Operations Unit cases. In addition, management indicated that the Unit’s review of recently
established tax-exempt organizations has not resulted in many transfers to the EO Examinations
function (97 cases over a 2-year period). Therefore, results have yet to be analyzed.

Recommendations
The Director, EO, should:
Recommendation 1: Establish performance measures for the Review of Operations Unit to
assist management in evaluating the productivity of the Unit and aid in allocating resources
within the EO function.


                                                                                           Page 7
                  Performance Measures and Improved Case Tracking Would
                        Help the Exempt Organizations Function Better
                                     Allocate Resources



       Management’s Response: IRS management agreed with this recommendation. The
       EO function is currently developing additional performance measures for the Review of
       Operations Unit.
Recommendation 2: Improve the type of closed case information captured on the Review of
Operations Unit database (such as new disposal codes and/or additional data fields) to more
clearly measure the accomplishments of the Unit.
       Management’s Response: IRS management agreed with this recommendation.
       EO function management is amending the Unit’s database to capture more case review
       results.
Recommendation 3: Analyze the results of recently established tax-exempt organization
cases closed in the Review of Operations Unit or transferred by the Unit for examination to
evaluate its productivity and assess whether any common issues were identified for potential
internal training needs and future compliance and/or educational activities.
       Management’s Response: IRS management agreed with this recommendation. The
       EO function is reviewing a sample of closed cases to determine whether to continue
       performing a sample review of recently established tax-exempt organizations and if
       possible training needs exist.




                                                                                          Page 8
                  Performance Measures and Improved Case Tracking Would
                        Help the Exempt Organizations Function Better
                                     Allocate Resources



                                                                                 Appendix I

       Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to assess the EO function Review of Operations Unit’s
effectiveness in identifying and evaluating recently established tax-exempt organizations that
may not be complying with their stated tax-exempt purposes and/or may not be current with all
filing requirements. In addition, we determined whether the results of reviews of recently
established tax-exempt organizations were used to identify emerging trends or issues for future
compliance work or education and outreach activities. To accomplish our objectives, we:
I.     Assessed the process the Tax Exempt and Government Entities Division follows to
       identify and evaluate recently established tax-exempt organizations that may not be
       complying with their stated tax-exempt purposes and/or may not be current with all filing
       requirements.
       A. Interviewed Tax Exempt and Government Entities Division Data Analysis Unit
          personnel to assess the process followed to identify and select the sample of recently
          established tax-exempt organizations for evaluation by the Review of Operations Unit
          each year.
       B. Interviewed applicable EO function management to determine the current process
          followed to identify and evaluate whether tax-exempt organizations are operating in
          accordance with their approved tax-exempt purposes and are current with all filing
          requirements.
       C. Interviewed EO Examinations function management to determine the process for
          assigning and reviewing cases transferred from the Review of Operations Unit.
       D. Interviewed EO function management to determine the goals of the Review of
          Operations Unit and identified any performance measures established by management
          to measure the effectiveness of the Unit in achieving established goals.
II.    Determined any results of the EO function’s efforts (in both the Review of Operations
       Unit and EO Examinations function) to identify and review cases to ensure recently
       established tax-exempt organizations are operating for their approved tax-exempt
       purposes and filing all required returns.
       A. Obtained statistics from the Review of Operations Unit’s database on the
          EO function’s efforts to identify and review cases, including the number of
          tax-exempt organizations identified, number of tax-exempt organizations reviewed,
          and results of the reviews.


                                                                                         Page 9
                   Performance Measures and Improved Case Tracking Would
                         Help the Exempt Organizations Function Better
                                      Allocate Resources



       B. Determined the number of case transfers made from the Review of Operations Unit to
          the EO Examinations function for further review and the results of the transfers.
       C. Interviewed applicable EO function management to determine whether results of
          recently established tax-exempt organization reviews and examinations are used to
          identify any emerging trends or issues for future compliance work or future education
          and outreach activities.
III.   Determined whether recently established tax-exempt organization cases that should have
       been transferred to the EO Examinations function for further development were not
       identified and referred by the Review of Operations Unit as required.
       A. Obtained a download from the Review of Operations Unit’s database of all 291 cases
          closed from July 1, 2006, through June 30, 2007, without being transferred for an
          examination.
       B. Selected and reviewed a random sample of 98 cases from the universe of 291 closed
          cases to identify any that should have been transferred for an examination. We
          computed a statistical sample size using a 90 percent confidence level, +5 percent
          precision rate, and 10 percent expected error rate.

Data validation methodology
We obtained extracts from the Review of Operations Unit database as well as the Returns
Inventory Classification System during our review. Validations performed included ensuring
that only appropriate data were included in each field and that the time period for the data met
our requirements. We determined all data received were sufficiently reliable for our use.

Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the EO function’s policies, procedures,
and practices for planning, managing and monitoring the Review of Operations Unit efforts to
review recently established tax-exempt organizations. We evaluated these controls by
interviewing management, reviewing applicable information, and analyzing closed cases.




                                                                                           Page 10
                 Performance Measures and Improved Case Tracking Would
                       Help the Exempt Organizations Function Better
                                    Allocate Resources



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Jeffrey M. Jones, Audit Manager
Cheryl J. Medina, Lead Auditor
Julia M. Moore, Senior Auditor
David P. Robben, Senior Auditor




                                                                                    Page 11
                 Performance Measures and Improved Case Tracking Would
                       Help the Exempt Organizations Function Better
                                    Allocate Resources



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
Division SE:T:CL




                                                                                  Page 12
                   Performance Measures and Improved Case Tracking Would
                         Help the Exempt Organizations Function Better
                                      Allocate Resources



                                                                                  Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Reliability of Information – Actual; four taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed a statistically valid sample of 98 cases from a universe of 291 cases closed by the
Review of Operations Unit from July 1, 2006, through June 30, 2007, involving recently
established tax-exempt organizations. In four cases, additional actions should have been taken
prior to case closure by Unit personnel, who did not ensure all returns were filed as required or
did not update the IRS database to correctly reflect each organization’s filing requirements. The
Unit planned to reopen these four cases to properly address all potential compliance issues.

Type and Value of Outcome Measure:
•   Reliability of Information – Potential; 59 taxpayer accounts affected (see page 3).

Methodology Used to Measure the Reported Benefit:
We reviewed a statistically valid sample of 98 cases from a universe of 291 cases closed by the
Review of Operations Unit from July 1, 2006, through June 30, 2007, involving recently
established tax-exempt organizations. Our case review identified 20 (20 percent) of 98 cases that
could be better tracked on the Review of Operations Unit database to improve the reliability of
the data. We computed the outcome measure by multiplying the 20 percent error rate times the
universe of 291 cases, resulting in a projection of 59 taxpayer accounts affected.
Improved tracking of issues identified by the Unit and overall case results will ensure
EO function management has complete and accurate data for conducting ongoing analyses,
which could be used to ensure the Unit is focusing its limited resources on the most productive
areas, transferring productive cases for review to the EO Examinations function, and reducing
taxpayer burden. These analyses could also support future resource allocation decisions.




                                                                                          Page 13
     Performance Measures and Improved Case Tracking Would
           Help the Exempt Organizations Function Better
                        Allocate Resources



                                                 Appendix V


Management’s Response to the Draft Report




                                                       Page 14
Performance Measures and Improved Case Tracking Would
      Help the Exempt Organizations Function Better
                   Allocate Resources




                                                  Page 15
Performance Measures and Improved Case Tracking Would
      Help the Exempt Organizations Function Better
                   Allocate Resources




                                                  Page 16
